In the 6upreme Court at the JIintteb t
:1.
ALEXANDER CHRISTIAN MILES,

Applicant,

UNITED STATES OF AMERICA

Respondent

APPLICATION TO EXTEND TIME TO
FILE A PETITION FOR WRIT OF CERTIORARI

DIRECTED TO THE HONORABLE SONYA SOTOMAYOR,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED
STATES AND CIRCUIT JUSTICE FOR THE UNITED STATES COURT OF
APPEALS FOR THE TENTH CIRCUIT

ALEXANDER C. MILES

pro se
C/O LAW OFFICES OF DON P. CHAIREZ

P.O. Box 1954
Pahrump. NV 89041
Telephone: (702) 281-0681
Facsimile: (702) 926-9700
acmilesesq@gmail.com
May 22, 2019

RECEVUJ
JUN -4 29
OFFICE OF TH

SUPREME CO1iJ.

To:
THE HONORABLE JUSTICE SONYA SOTOMAYOR,
CIRCUIT JUSTICE FOR THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT:

The Applicant and Petitioner, Dr. Alexander C. Miles, respectfully requests a 60day extension to file his petition for a writ of certiorari.
If granted, the filing deadline would be extended from August 1, 2019, to
September 30, 2019.
Dr. Miles will ask for a review by this Court of a published judgment by the Tenth
Circuit Court of Appeals, rendered on May 3, 2019, and attached hereto as
ATTACHMENT A.
The Supreme Court has jurisdiction to review the Tenth Circuit's judgment under
28 U.S.C. § 1254(1). The Tenth Circuit issued its published opinion in Miles v. United
States, Case No. 18-6119, on May 3, 2019.
The Petitioner, currently acting pro Se, respectfully contends that an extension is
required for the following reasons:
(1)

The Tenth Circuit dismissed the Petitioner's second coram nobis appeal by relying

on the common law abuse of the writ doctrine as codified by the AEDPA under 28
U.S.C. §2255.
In Prost v. Anderson, 636 F.3d 578 (loth Cir. 2011), the Tenth Circuit provides
that second or successive petitions by prisoners, except as specified in 28 U.S.C.
§2255(h), are allowed only when the remedy of an initial petition under 28 U.S.C. §2255
was "inadequate or ineffective to test the legality of the [prisoner's] detention" under the

'savings clause' of 28 U.S.C. §2255(e).
Frost posits that the remedy of an initial §2255 petition is only inadequate or
ineffective when a sentencing court has ceased to exist, such as when a court martial has
been disbanded.
Thus, under Frost, access to the remedy of an initial §2255 petition is not impeded
by the denial of relief due to legal or factual errors by a trial or appellate court, no matter
how egregious: In the interests of finality of judgments, one, and only one chance under
§2255 is all a criminal defendant gets, no matter how purportedly factually innocent
under statutory law.
In the instant published opinion, and in prior unpublished opinions, the Tenth
Circuit has expanded the ambit of Frost to encompass coram nobis petitions by persons at
liberty, not otherwise subject to the constraints of the AEDPA. In reality, this constitutes
a judicial abrogation of the All Writs Act.
(2)

This case also involves a material breach of the terms of a fully integrated plea

agreement, caused by the government and district court, acting in consort, amending the
date and factual basis for the crime the Petitioner originally had pled guilty to and been
convicted of, more than two years earlier. This post hoc, 2011 amendment of the
Petitioner's criminal charges resulted in the Petitioner standing convicted of a
completely different offense, for double jeopardy purposes, than what he had been
originally charged with and convicted on in 2009. Both the district court and Tenth
Circuit have openly conceded that the reason for the post-hoc amendments was to correct
a charging error due to the government mistakenly having charged the Petitioner with
2

conduct that later turned out not to be criminalized under controlling Board of
Immigration Appeals precedent.
(3)

After the AEDPA was promulgated in 1996, a four-way circuit split regarding the

availability of second or successive habeas petitions by current and former federal
prisoners claiming factual innocence, and other grave procedural errors, has developed.
This circuit divide is currently ripe for review and guidance by the Supreme Court.
Nor has the Supreme Court ever expressly provided that contract law principles
should govern the enforcement of plea agreements by criminal defendants to the same
degree as commercial contracts. At present, the federal judiciary is reluctant to apply
contract law to plea agreements when it would disadvantage the government. However,
there is no reason why an individual who bargains with his liberty should receive fewer
contractual protections than an individual or business in the commercial marketplace that
buys products or services. In this context, civil litigants are in a superior position to
criminal defendants when it comes to enforcement of contractual rights. Therefore, the
Petitioner also intends to solicit this Court's guidance on whether plea agreements should
be on par with commercial contracts, and enforced by the application of contract law
principles, even in instances where it would favor criminal defendants.
Since these two issues are of universal importance to all criminal defendants and
their counsel, as well as the executive branch and judiciary, the extra 60 days will be used
to solicit amicus brief from interested parties and organizations.
Furthermore, as the Supreme Court eschews the prospect of inept oral arguments
by wild card amateurs, the Petitioner will also use the extra time to attempt to secure the
3

assistance of counsel, ideally in the form of a commercial law firm Supreme Court
litigation department, or law school litigation clinic, whose representatives are in regular
attendance before this Court.
(7)

An extension will not prejudice the Office of the Solicitor General of the United

States, since it is not routinely onligated to respond to certiorari petitions.
Respectfully submitted,

ALEXANDER C.

ES

-

pro se
dO LAW OFFICES OF DON P. CHAIREZ

P.O. Box 1954
Pahrump. NV 89041
Telephone: (702) 281-0681
Facsimile: (702) 926-9700
acmilesesQ@gmail.com

4

